BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Petition for
Writ of Certiorari in April Diane Myres v. United
States of America, were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent Next
Day Service and e-mail to the following parties listed
below, this 23rd day of September, 2021:
Brian H. Fletcher
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
Anne M. Voigts
Counsel of Record
King & Spalding LLP
601 S. California Avenue
Suite 100
Palo Alto, CA 94304
(650) 422-6700
avoigts@kslaw.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001
www.beckergallagher.com

Suite 102

1300 I Street, NW, Suite 400E

1

Cincinnati, Ohio 45249

' Washington, DC 20005

Michael J. Shepard
Matthew V.H. Noller
King & Spalding LLP
50 California Street
Suite 3300
San Francisco, CA 94105
(415) 318-1200
mshepard@kslaw.com
mnoller@kslaw.com
David P. Mattern
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
dmattern@kslaw.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 23, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

,JOHN D. GALLAGHER
Notary Public, State of Olio

My Commission Expires
rebruary 14, 2023

